Ti

@OCKLE

Le g al Brie fs E-Mail Address:

contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214
Est. 1923
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No.

ALAN PHILIPP,
GERALD STIEBEL, AND JED LEIBER,
Conditional Cross-Petitioners,
Vv.
FEDERAL REPUBLIC OF GERMANY,
A FOREIGN STATE, AND STIFTUNG
PREUSSISCHER KULTURBESITZ,
AN INSTRUMENTALITY OF A FOREIGN STATE,
Conditional Cross-Respondents.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the CONDITIONAL
CROSS-PETITION FOR WRIT OF CERTIORARI in the above entitled case complies with the
typeface requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook
12 point for the text and 10 point for the footnotes, and this brief contains 4539 words, excluding

the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 1 8th day of October, 2019.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . \
State of Nebraska ‘ LG Qudraw- ,
My Commission Expires Nov 24, 2020 .

Notary Public Affiant

 

 

38825
